\

Supreme Court, U.S.
FILED

T

-537
IN THE
SUPREME COURT OF THE UNITED STATES

Jessica Graulau - Petitioner,
v.
Credit One Bank, N.A. - Respondent.

PETITION FOR A WRIT OF CERTIORARI
To United States Court Of Appeal for the Eleventh Circuit

Jessica Graulau, Petitioner as pro se
PO Box 721037
Orlando FL 32872
(407) 721-6303
r;'

■#***-••

AUG 0 9 2021
OFFICE OF THE CLERK

\

QUESTIONS PRESENTED
1.

Did Circuit Court of Appeal violated U.S. Const. Amend. XII enforced by Fed. R.

Civ. P. 38 & 39 after affirmed the District Court’s decision that deprived a civil lawsuit
and arbitration issues from be decided by a jury in conflict with Title 9 U.S.C. § 4 and this
Court opinion in Baltimore & Carolina Line, Inc. v. Redman, 295 U.S. 654 (1935)?
2.

Did Circuit Court of Appeal violated U.S. Const. Amend. XIV § 1 after affirmed the

District Court’s decision that departed so far from due process of law by referring a civil
action to a Magistrate Judge without consent in conflict with Title 28 U.S.C. § 636, Fed R.
Civ. P. 73 and Local Rule 6.05; and deprived from equal protection of laws after referred to
arbitration a case excluded in conflict with 28 U.S.C. § 654, Local Rule 8.02 and this Court
opinion in United Steelworkers of Am. v. Warrior & Gulf Navigation Co., 363 U.S. 574
(i960); Green Tree Financial Corp. Alabama v. Randolph, 531 U.S. 79 (2000) bounded by
related case holding A.D. v. Credit One Bank, N.A., Case No. 17*1486 (7th Cir. 2018)?
3.

Did Circuit Court of Appeal violated U.S. Const. Article III § 2 enforced by Titles 28

U.S.C. § 1331 § 1343 and “Telephone Consumer Protection Act” (TCPA) when affirmed the
District Court’s decision of having lack of subject matter jurisdiction for a TCPA claim to
redress constitutional right of privacy and recover private statutory reliefs in conflict with
47 U.S.C. § 227(c)(5) and this Court opinion in Mims v. Arrow Financial Services, LLC,
565 U.S. 368 (2012) bounded by related case holding A.D. v. Credit One Bank, N.A., Case
No. 14C10106 (N.D. Ill 2016)?

LIST OF PARTIES
All parties to the proceeding whose judgment is sought to be reviewed appear in the
caption. Petitioner is not a corporate entity.
RELATED CASES
Jessica M. Graulau Maldonado v. Credit One Bank, N.A., Case No. 20-12037 (llth
Cir. 2021). Unpublished opinion entered on May 6th of 2021 appears at petition Appendix
A [Pet.App P. la1]; and judgment appear on Appendix B [Pet.App. P. 8a].
Jessica M. Graulau Maldonado v. Credit One Bank, N.A., Case No. 6;i9’cvl723'
Orl-78-GJK (M.D. Fla. May 28, 2020). Final Order entered on May 28th of 2020 appears at
petition Appendix C [Pett.App. P. 9a].
Jessica M. Graulau Maldonado v. Credit One Bank, N.A., Case No. 6*18-cv-106-Orl22DCI (M.D. Fla. Apr. 10, 2018) is a related case over which was invoked supplemental
jurisdiction [USDC Dkt. 82]. Final Order entered on April 10th of 2018.
A.D. v. Credit One Bank, N.A., Case No. 17-1486 (7th Cir. 2018) is a related appeal
over which was invoked supplemental jurisdiction [USDC Dkt. 8].

Verbatim opinion

appears at petition on Appendix I [Pett.App. P. 41a].
-

A.D. v. Credit One Bank, N.A., Case No. 14 C 10106 (N.D. Ill. Aug. 19, 2016) is a

related class action over which was invoked supplemental jurisdiction [USDC Dkt. 8].
Verbatim opinion appears at petition Appendix H [Pett.App. P. 30a].

1 “Pett.App.” = Petition Appendix; “P.” = Page
2 “USDC” = United States District Court; “Dkt.” = Docket

11

TABLE OF CONTENT
Opinions Below

1

Jurisdiction

1

Constitutional and Statutory Provisions

2

Statement of the Case

6

Reasons For Granting the Writ

12

Conclusion

29
INDEX OF APPENDICES

APPENDIX A Court of Appeal Unpublished Opinion

la

APPENDIX B Court of Appeal Judgment

8a

APPENDIX C District Court Final Order

9a

APPENDIX D District Court Magistrate Judge’s Report

11a

APPENDIX E Court of Appeal Order leaving appeal as pauper

16a

APPENDIX F Court of Appeal Docket

21a

APPENDIX G District Court Docket

26a

APPENDIX H Opinion A.D. v. Credit One Bank NA, Case No. 14C10106

30a

APPENDIX I Opinion A.D. v. Credit One Bank, NA, Case No. 17-1486

41a

APPENDIX J District Court Local Rules Effective Before Feb. 1st, 2021

61a

APPENDIX K Credit One Bank, N.A. Arbitration Agreement

79a

in

TABLE OF AUTHORITIES CITED
Case Law

Page(s) No.

A.D. v. Credit One Bank, N.A., Case No. 14C10106 (N.D. Ill. Aug.

4, 24, 26

19, 2016)
A.D. v. Credit One Bank, N.A., Case No. 17*1486 (7th Cir. 2018)

5, 15, 19

Baltimore & Carolina Line, Inc. v. Redman, 295 U.S. 654 (1935)

4, 27

Cabinetree of Wisconsin, Inc. v. Krafmaid Cabinetry, Inc., 50 F.3d

24

388, 390 (7^ cir. 1995)
Canakaris v. Canakaris, 382 So.2d 1197 (Fla. 1980)

28

Ernst & Young LLP v. Baker O’Neal Holdings, Inc., 304 F.3d 753

24

(7th Cir. 2002)
Green Tree Financial Corp. Alabama v. Randolph, 531 U.S. 79

4, 23

(2000)

Haines v. Kerner, 404 U.S. 519, 92 S. Ct. 594 (1972)

28

Henry Schein, Inc. v. Archer & White Sales, Inc., 586 U.S.__(2019)

16

Ivax Corp. v. B. Braun ofAmerica, Inc., 286 F.3d 1309 (11th Cir.

24, 25

2002)

Martinez v. KristiKleaners, Inc., 364 F.3d 1305 (11th Cir. 2004)
Mims v. Arrow Financial Services, LLC, 565 U.S. 368 (2012)

22

4, 15

North Shore Hospital, Inc. v. Barber, 143 So.2d 849 (Fla. 1962)

28

Osorio v. State Farm Bank, 746 F.3d 1242 (11th Cir. 2014)

27

Rent-A-Center, West, Inc. v. Jackson, 561 U.S. 63 (2010)

14

IV

Tellabs, Inc. v. Makor Issues & Rights LTD, 551 U.S. 308 322(2007)
United Steelworkers ofAm. v. Warrior & GulfNavigation Co., 363

20

4, 15, 16

U.S. 574 (1960)
Statute and Rule
U.S. Const. Article III § 2

2, 15

U.S. Const. Amend. XII

2, 15, 27

U.S. Const. Amend. XIV § 1

2, 26

7 U.S.C. § 349

14

9 U.S.C. § 2

17

9 U.S.C. §4

2, 11, 17, 27

28 U.S.C. §636

2, 26, 27

28 U.S.C. §651

12, 18, 19

28 U.S.C. § 654

3, 8, 12, 18, 19

28 U.S.C. § 1254

1

28 U.S.C. § 1331

3, 8, 15, 17

28 U.S.C. § 1343

3, 8, 9, 15, 17, 19

47 U.S.C. § 227

3, 15

Fla. Stat. § 48.193

9

Fla. Stat. § 48.194

9

Fla. Stat. § 57.082

9

Fla. Stat. § 559.72

7

Fed. R. Civ. P. 12

6, 10, 15
v

Fed. R. Civ. P. 38

5, 15

Fed. R. Civ. P. 39

5, 15

Fed. R. Civ. P. 41

20

Fed. R. Civ. P. 53

29

Fed. R. Civ. P. 73

5, 26

M.D. Local Rule 8.01 (effective before February 1st, 2021)

12, 19

M.D. Local Rule 8.02 (effective before February 1st, 2021)

19

M.D. Local Rule 8.06 (effective before February 1st, 2021)

21

Eleventh Circuit Internal Operating Procedures-3

10

Other Authorities
West's Encyclopedia ofAmerican Law, edition 2 (2008)

vi

20

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF CERTIORARI

Petitioner Jessica Graulau (hereinafter petitioner) respectfully prays this Court
issue a writ of certiorari to review the final judgment entered by the Eleventh Circuit
Court of Appeal for a final order entered by the Middle District Court of Florida, Orlando
Division.

OPINIONS BELOW
The unpublished opinion of the Eleventh Circuit Court of Appeal appears at petition
Appendix A [Pet.App. P. la]; and its judgment appears at Appendix B [Pet.App. P. 8a].
The final order of the Middle District Court of Florida appears at petition Appendix C
[Pett.App. P. 9a]> and Magistrate Judge’s Report and Recommendation appear at
Appendix D [Pet.App. P. 11a].

JURISDICTION
The Eleventh Circuit Court decided the appeal on May 6th of 2021. No petition for
rehearing was filed. The jurisdiction of the United States Supreme Court is invoked under
28U.S.C. § 1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. Const. Article III § 2 “The judicial Power shall extend to all Cases, in Law and
Equity, arising under this Constitution, the Laws of the United States, and Treaties
made, or which shall be made, under their Authority...to Controversies...between
citizens of different States”
U.S. Const. Amend. XII “In Suits at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be preserved”
U.S. Const. Amend. XIV § 1 “No...shall any State deprive any person of life, liberty, or
property, without due process of law,* nor deny to any person within its jurisdiction the
equal protection of laws.”
9 U.S.C. § 4 “If the making of the arbitration agreement or the failure, neglect, or
refusal to perform the same be in issue, the court shall proceed summarily to the trial
thereof...Where such an issue is raised, the party alleged to be in default may, except
in cases of admiralty, on or before the return day of the notice of application, demand a
jury trial of such issue, and upon such demand the court shall make an order referring
the issue or issues to a jury in the manner provided by the Federal Rules of Civil
Procedure, or may specially call a jury for that purpose”
28 U.S.C. § 636(b-c) “(b)(1) Notwithstanding any provision of law to the contrary—(A) a
judge may designate a magistrate judge to hear and determine any pretrial matter
pending before the court, except a motion for injunctive relief, for judgment on the
pleadings, for summary judgment, to dismiss or quash an indictment or information
made by the defendant, to suppress evidence in a criminal case, to dismiss or to permit
maintenance of a class action, to dismiss for failure to state a claim upon which relief
can be granted, and to involuntarily dismiss an action...(c)(1) Upon the consent of the
parties, a full-time United States magistrate judge or a part-time United States
magistrate judge who serves as a full-time judicial officer may conduct any or all
proceedings in a jury or nonjury civil matter”

2

28 U.S.C. § 654(a-c) “ARBITRATION, (a) Referral of Action to Arbitration ...a district
court may allow the referral to arbitration of any civil action (including any adversary
proceeding in bankruptcy) pending before it when the parties consent, except that
referral to arbitration may not be made where (l) the action is based on an alleged
violation of a right secured by the Constitution of the United States; (2) jurisdiction is
based in whole or in part on section 1343 of this title; or (3) the relief sought consists of
money damages in an amount greater than $150,000. (b) SAFEGUARDS IN CONSENT
CASES...district court shall, by local rule...establish procedures to ensure that any civil
action in which arbitration by consent is allowed under subsection (a)(1) consent to
arbitration is freely and knowingly obtained; and (2) no party or attorney is prejudiced
for refusing to participate in arbitration. (c)PRESUMPTIONS. For purposes of subsection
(a)(3), a district court may presume damages are not in excess of $150,000 unless
counsel certifies that damages exceed such amount."
— 28 U.S.C. § 1331 FEDERAL QUESTION JURISDICTION • The district courts shall
have original jurisdiction of all civil actions arising under the Constitution, laws, or
treaties of the United States.,,
- 28 U.S.C. § 1343(a) “The district courts shall have original jurisdiction of any civil
action authorized by law to be commenced by any person:...(3) To redress the
deprivation, under color of any State law, statute, ordinance, regulation, custom or
usage, of any right, privilege or immunity secured by the Constitution of the United
States or by any Act of Congress providing for equal rights of citizens or of all persons
within the jurisdiction of the United States; (4) To recover damages or to secure
equitable or other relief under any Act of Congress providing for the protection of civil
rights, including the right to vote”
47 U.S.C. § 227(c)(5) “Private RIGHT

of

ACTIONvA person who has received more than

one telephone call within any 12'month period by or on behalf of the same entity in
violation of the regulations prescribed under this subsection may, if otherwise
permitted by the laws or rules of court of a State bring in an appropriate court of
that State-(A) an action based on a violation of the regulations prescribed under this
subsection to enjoin such violation, (B) an action to recover for actual monetary loss

3

from such a violation, or to receive up to $500 in damages for each such violation,
whichever is greater, or (C) both such actions.”
- Mims v. Arrow Financial Services, LLC, 565 U.S. 368 (2012) "federal and state courts
have concurrent jurisdiction over private suits under the TCPA.”
-

Green Tree Financial Corp. -Alabama v. Randolph, 531 U.S. 79 (2000) “In determining
whether such claims may be arbitrated, the Court ask whether the parties agreed to
submit the claims to arbitration and whether Congress has evinced an intention to
preclude a waiver of judicial remedies for the statutory rights at issue...the existence of
large arbitration costs may well preclude a litigant...from effectively vindicating such
rights...the party resisting arbitration bears the burden of proving that Congress
intended to preclude arbitration of the statutory claims at issue... Thus, a party seeking
to invalidate an arbitration agreement on the ground that arbitration would be
prohibitively expensive bears the burden of showing the likelihood of incurring such
costs”

-

United Steelworkers of Am. v. Warrior & Gulf Navigation Co., 363 U.S. 574 (i960)
arbitration is a matter of contract and a party cannot be required to submit to
arbitration any dispute which he has not agreed so to submit”

- Baltimore & Carolina Line, Inc. v. Redman, 295 U.S. 654 (1935) “The right to trial by
jury preserved by the Seventh Amendment is the right which existed under the
English common law when the Amendment was adopted...The aim of the Amendment
is to preserve the substance of the common law right of trial by jury, as distinguished
from mere matters of form or procedure, and particularly to retain the common law
distinction between the province of the court and that of the jury, whereby, in the
absence of express or implied consent to the contrary, issues of law are to be resolved
by tbe court, and issues of fact are to be determined by the jury under appropriate
instructions by the court.”
- A.D. v. Credit One Bank, N.A., Case No. 14C10106 (N.D. Ill. Aug. 19, 2016) “The TCPA
can be seen as merely liberalizing and codifying the application for a common law tort
to a particularly intrusive type of unwanted telephone call...invasion of privacy, have
traditionally been regarded as providing a basis for a lawsuit in the United States and

4

Congress enacted the TCPA to protect consumers from the annoyance, irritation, and
unwanted nuisance... Congress has provided legislatively that a violation of section 227
is an invasion of the call recipient’s privacy...The Court therefore denies Credit One’s
motion to dismiss for lack of subject matter jurisdiction under Rule 12(b)(1)...A party
may waive a contractual right to arbitrate expressly or implicitly...in determining
waiver, diligence or the lack thereof should weigh heavily in the decision-did that party
do all it could reasonably have been expected to do to make the earliest feasible
determination of whether to proceed judicially or by arbitration..lengthy delay itself
can lead to an implicit waiver of arbitration...This is especially true where the delay
was due purely to the defendant’s lack of diligence”.

Verbatim opinion appears at

petition Appendix H [Pett.App. P. 30a]
- A.D. v. Credit One Bank, N.A., Case No. 17-1486 (7th Cir. 2018) “the fundamental
principle that arbitration is a matter of contract...arbitration agreements are
contracts...a party cannot be required to submit to arbitration any dispute which he
has not agreed so to submit... statute protecting her from harassing phone calls. This is
the core of her case...In no way can her cause of action be considered premised on the
cardholder agreement.” Verbatim opinion appears at petition Appendix I [Pett.App. P.
41a]
Fed. R. Civ. P. 38(a) “(a) Right Preserved. The right of trial by jury as declared by the
Seventh Amendment to the Constitution or as provided by a federal statute is preserve
to the parties inviolate.”
Fed. R. Civ. P. 39(a) “When a jury trial has been demanded under Rule 38, the action
must be designated on the docket as a jury action. The trial on all issues so demanded
must be by jury...”
- Fed. R. Civ. P. 73(a) “When authorized under 28 U.S.C. §636(c), a magistrate judge
may, if all parties consent, conduct a civil action or proceeding, including a jury or
nonjury trial. A record must be made in accordance with 28 U.S.C. §636(c)(5).”
- Verbatim Middle District Court Local Rules 1.03-1.04, 3.08, Chapters 6 & 8 effective
before February 1* 0f 2021 appears at petition Appendix J [Pett.App. P. 61a].

5

STATEMENT OF THE CASE
I.

Nature of the Case
The core of this case is violation of the constitutional right of privacy caused by

harassment phone calls made by Credit One Bank, N.A. (hereinafter respondent). On
May 2013 petitioner signed revolving credit cardholder agreement not subject to
arbitration after same month petitioner sent by mail writing notice refusing arbitration.
Between years 2014-2015 respondent made at least 2,446 autodial calls to petitioner’s cell
phone No. 6065 using their multiline automatic telephone dialing system with caller
identification capture software to collect account payment that was less than 30 days past
due. Same way during 2016-2017, respondent made at least another hundreds autodial
calls to petitioner s cell phone No. 6065 and account authorize user’s cell phone No. 6063
to collect account payment. Respondent actions were made with knowledge about their
wrong doing not by error and as a result petitioner suffered injuries such harassment,
great nuisance, intrusion of seclusion, invasion of privacy, etc.
II.

Relevant Proceedings of Related Cases
On December 17th of 2014 A.D. filed against Credit One Bank, N.A. a class action

case No. 14C10106 at Northern District Court of Illinois to recover damages for violation
of TCPA due to harassment phone calls. The petitioner was a class member who was
identified in a Credit One’s log list to have received at least 2,446 autodial calls to her cell
phone No. 6065 from Credit One’s multiline automatic telephone dialing system [USDC
Dkt. 1, Ex.1 4]. On August 19th of 2016 District Court denied Credit One’s motion to
dismiss filed under Fed. R. Civ. P. 12(b)(1) claiming lack of subject matter jurisdiction and
1 “Ex.” = Exhibit
6

determined the district court has jurisdiction over the TCPA claim. On March 13‘h 0f 2017
A D- filed an appeal at Seventh Circuit Court who granted the class action certification;
and denied motion to compel arbitration opining that the TCPA claim for harassment
phone calls is not premised to the arbitration agreement and finding that Credit One
waived arbitration due to their lack of diligence [USDC Dkt. 1, Ex. 8], On November 22«‘>
of 2017, petitioner output from the class action to file a private lawsuit through an
attorney as was asserted [USDC Dkt. 1, Par. 2 37].
On January 22"d of 2018, petitioner filed against Credit One a counseled civil action
case No. 6-18'Cv*106*Orl"22DCI at Middle District of Florida to recover statutory damages
under TCPA and “Florida Consumer Collection Practices Act” (FCCPA) Fla. Stat. § 559.72
invoking only federal question jurisdiction. On April 7<* the attorney via email informed
the petitioner that upon Credit One’s request to refer the claim to arbitration, he was
going to file the case in arbitration.

On April 9th attorneys signed Joint Stipulation

Dismissing and Referring Case to Arbitration. Next day the court issued a voluntary
dismissal order entered without prejudice not as a judgment on the merits of the case but
rather base on the agreement between attorneys within joint stipulation. Fifty days later
after the expiration of the 30 days to re-file the case, on May 31st of 2018 the attorney via
email informed that will not continue his legal representation and advised the petitioner
to file the arbitration case by herself. Credit One never filed a motion to compel with
arbitration or such joint stipulation neither sent any notice about an intention to seek
compel nor never filed the arbitration case in a lack of diligence inconsistent with their
request to arbitrate as was asserted [USDC Dkt. 1, Par. 48]. Despite countless attempts
2 “Par.” = Paragraph

7

petitioner could not found a new legal representation to file arbitration neither was able to
arbitrate her claim due to her indigent status because the so many prohibitively expensive
arbitration costs specified in the complaint [USDC Dkt. 1, Par. 47],
III.

Relevant Proceedings of the Case
To prevent her claim be barred due to statute time limitation, petitioner as indigent

pro se filed against respondent a new civil action at Middle District Court of Florida case
No. 6:i9-cv-1723-Orl-78-GJK to recover damages under TCPA and FCCPA invoking
jurisdiction under 28 U.S.C. § 1331 § 1343 with substantial changes from the previous
counseled case including, but not limited to: i) included arbitration issues [USDC Dkt. 1,
Par. 14-15]; 2) in addition to federal question jurisdiction invoked original jurisdiction
under Section 1343 [USDC Dkt. 1, Par. 8] that confer arbitration exemption pursuant
Section 654; 3) the court is not under the statutory presumption that relief sought is less
than $150,000 because the complaint included an assertion not previously made about
damages are greater than $150,000 [USDC Dkt. 1, Par. 67] that confer arbitration
exemption pursuant Section 654; 4) claimed she is indigent and cannot pay arbitration
costs because are prohibitively expensive [USDC Dkt. 1, Par. 47] sustained by a Credit
One s employee affidavit stating petitioner is responsible to pay for arbitration costs
[USDC Dkt. 1, Ex. 2L 5) included related class action and its appeal previously omitted
[USDC Dkt. 1, Par. 10]; 6) included evidences as exhibits such cardholder agreement
[USDC Dkt. 1, Ex. 1] to be considerate as part of the complaint; 7) asserted new material
facts such as petitioner refused arbitration for her cardholder agreement [USDC Dkt. 1,
Par. 18]. Petitioner claim the case is legally excluded from arbitration because four main
reasons- l) pursuant 28 U.S.C. § 654 the case is exempt from arbitration because is about

8

violation of the constitutional right of privacy invoking jurisdiction under 28 U.S.C. § 1343
and claim relief in amount greater than $150,000; 2) due to her indigent status arbitration
cost are prohibitively expensive that would precluding from vindicate her rights because
she is responsible to pay all arbitration costs; 3) violation to the TCPA are not subject to
arbitration or premised to the cardholder agreement; and 4) respondent waived their
arbitration request due to their lack of diligence as was argued in District Court [USDC
Dkt. 10, 19, 26] > and Circuit Court within initial and reply briefs.
Respondent failed to appoint the required foreign corporate agent for service of
process in Florida reason why was served at its principal place of business in Las Vegas,
Nevada under F.S. § 48.194(1) which made the cardholder agreement governable by
Florida State laws pursuant F.S. § 48.193(b). Petitioner filed a motion to proceed in forma
pauperis [USDC Dkt. 2] claiming indigent status pursuant F.S. § 57.082 sustained by an
affidavit showing she own no assets and her annual income do not exceed the 125% of the
federal poverty guidelines. The case was referred to a Magistrate Judge (hereinafter MJ)
without petitioner s consent.

On September 13th the District Court issued Interested

Persons Order for Civil Cases [USDC Dkt. 5] ordering that by September 27th of 2019 each
party should hie a Certificate of Interested Persons and Corporate Disclosure Statement
(CIP) noting that any motion may be deny or strike unless the filing party first files a CIP
and parties cannot seek discovery until first file a CIP; and issued a Related Case Order
and Track Two Notice [USDC Dkt. 4] ordering that no later than 45 the parties should
have a Case Management Conference (CMC) noting that all parties must timely comply
with this requirement despite the pendency of any undecided motions,

In contempt

without file a CIP, on November 5th respondent presented a defense through motion to
9

dismiss [USDC Dkt. 9] filed under Fed. R. Civ. P. 12(b)(1) claiming court’s lack of subject
matter jurisdiction based on previous related case join stipulation. In response petitioner
file a motion to strike [USDC Dkt. 10] mainly arguing that joint stipulation do not deprive
the District Court from its jurisdiction ordinarily granted by law; the case was exempt
from arbitration; and respondent waived their request to arbitrate. On January 24th of
2020 was issued Interested Persons Order for Civil Cases Directed to Defendant [USDC
Dkt. 14] ordering to respondent that by February 7th must file their CIP and cannot seek
discovery until then. Without respondent file a CIP, on February 5th MJ issued Report
and Recommendation [USDC Dkt. 15] (hereinafter RR) recommending the court grant
motion to dismiss and order petitioner refer the claim to arbitration based on previous
case joint stipulation. The RR did not included the notice about the “time period for
objecting or seeking an extension of time to file written objections and notice that failure
to object in accordance with the provisions of § 636(b)(1) waives the right to challenge on
appeal the district court’s order based on unobjected'to factual and legal conclusions ,
required by Eleventh Circuit Internal Operating Procedures-3. Although the RR was
issued on February 5th the District Court sent it to petitioner on February 7th via regular
mail and since petitioner is not a user of the electronic court filing system, the deadline to
file objections to the RR was February 27th. On February 12th petitioner filed a notice of
appeal for the RR [USDC Dkt. 16] that was treated by the Court of Appeal [ECF3 No.
, 9143810-2, Pett.App. 18a]; docketed by the District Court [Pet.App. G, P. 80a, Dkt. 16];
considered by MJ [USDC Dkt. 23, P. 2]; deemed by District Judge [USDC Dkt. 27,

3 “ECF” = Electronic Court Filing

10

>

4

»•

►

*

r*

4

Footnote]-' admitted by respondent [USDC Dkt. 22, P. 2] as petitioner’s timely objection in
lieu to the RR. On February 18th was issued an Order to Show Cause [USDC Dkt. 18]
ordering to petitioner show cause why the case should not be dismiss due failure to comply
with the CMC. On February 24th petitioner filed Response to Order to Show Cause [USDC
Dkt. 19] asserting specific reasons why the court should not adopt the RR that should be
consider as timely objections in lieu to the RR; and contending that since a CMC is part of
the discovery and the court prohibited seek discovery until respondent first file a CIP
respondent is the only responsible because of their negligence failure to file the required
CIP. On May 22nd of 2020 petitioner filed Plaintiffs Motion Directed to Assigned District
Judge to Request Vacant of Magistrate Judge [USDC Dkt. 26] reasserting the reasons
already made within Response to Order to Show Cause [USDC Dkt. 19] about why the
court should not adopt the RR; requesting vacate MJ because petitioner never consent the
case be referred; and demanding the arbitration issues be decided by a jury pursuant 9
U.S.C. § 4. The District Judge refused to consider petitioner’s reasons for do not adopts
the RR that were re-asserted in the motion to vacate MJ because the due date to file
objections expired [Pett.App. C, Footnote] dismissing the case ordering to petitioner
submits her claim to arbitration base on previous case joint stipulation.
On June 3rd of 2020 petitioner filed an appeal at the Eleventh Circuit Court. On
August 25th of 2020 the Circuit Court issued Order [ECF 9143810-2] that appears at
petition Appendix E [Pett.App. 16a] granting petitioner motion to appeal in forma
pauperis due to poverty after accepted her affidavit of indigency showing that she had no
assets and determined the appeal was not frivolous because the complaint alleged
arbitration was prohibitively expensive due to her indigent status and included an

11

r

i

?

/
:

affidavit from Credit One employee stating she is responsible for paying all charges
incurred with arbitration agreement.

The Circuit Court affirmed the District Court’s

decision and determined that respondent did not waived arbitration! petitioner’s argument
about arbitration is prohibitively expensive failed! Title 28 U.S.C. § 654 does not apply
because 28 U.S.C. § 651 it cannot affect the arbitration agreement subject to the Federal
Arbitration Act (FAA)‘Title 9! and Local Rule 8.01 was repealed on February 1st of 2021 to
be implemented in accord with it.

Petitioner respectfully dissent and now present the reasons for this review.

REASONS FOR GRANTING THE WRIT
Arbitration and the TCPA claims are important public matter constantly settled by
this Court for more than a decade. This petition present an opportunity for the Supreme
Court provide an instructive interpretation of a federal law not issued before about if
Congress has evinced an intention to preclude District Court’s jurisdiction and a waiver of
arbitrations judicial remedies under Title 28. In the furtherance of justice to protect the
fairness of the judicial proceedings and the uniformity of the federal courts system is
needed this Court’s supervisory power to clear differences in opinions issued by four
different courts over the same particular matter to vindicate private statutory rights
under TCPA. In addition this case provide add another blueprint besides the most recent
justice opinion about arbitration exceptions, this time about how arbitration exemptions
under Title 28 applies to Titles 9 and TCPA claims! and set an historical precedent to

12

exclude arbitration as prohibitively expensive for indigent pro se litigants who are not
lawyers or law students.
The issue subject to this case IS NOT about an arbitration contract subject to FAA
arising from transactions involving interstate commerce.

Neither petitioner’s lawsuit

constitutional minimum legal standing has been challenge by the defense.

Rather the

main issue is whether the District Court has lack of subject matter jurisdiction for been
deprived from its federal question and civil right original jurisdiction over a TCPA claim
due to a court base joint stipulation entered for a closed previous case. Among other
issues are whether a TCPA claim for violation of the constitutional right of privacy for
harassment phone calls is not premised to the cardholder agreement; whether issues of
material facts shall be determined by a jury; and whether violations to TCPA should be
resolve by the court in their exclusive constitutional duty to assure federal laws be
faithfully executed which cannot be transferred to the private sector base on a contract.
Delegate in private sector proceedings, such arbitration, the adjudication of federal laws
confer to arbiters same status as federal judges who are nominate by the President
confirmed by the Senate and state judges who are constituted by the correspondent
government authorities.

The possibility to delegate in arbitration any matter that a

contract abide, it would be the same to say that federal courts can be deprived from the
jurisdiction under other Acts of Congress. If so, it would be the same to say that there is
lack of federal jurisdiction under Child Support Recovery Act if a marital contract has a
provision to resolve child support delinquency in arbitration; lack of federal jurisdiction
under Motor Vehicle Theft Law Enforcement Act if a car dealer’s salesman claim cannot
be prosecuted if steal a car from, the inventory because his labor contract have a provision

13

to submit any dispute to arbitration.

If a business violated a federal law this is an

exclusive matter of the court that cannot be delegated in the private sector or arbitrators
who are not vested with judicial power to interpreter or implement those federal laws not
premised to a business transaction dispute or contract. This carry a great importance for
the public interest because corporate giants may use their disproportionate bargaining
power/resources to unilaterally easily remove themselves from the legal system to getaway
from justice and avoid comply with the requirements under an Act of Congress through
money either by means of be cheaper pay sanctions than actual cost or it’s cheaper being
sorry than comply with the law. Ruling any different would threaten the foundations that
build our entire legal structure and would overturn case authorities applied through our
jurisprudence for almost a century. It is imperative the courts be jealous guardians of
their non-delegable constitutional duties without any kind of bias in accord to the needs as
society continues to evolve.
I.

DISTRICT COURTS HAVE SUBJECT MATTER JURISDICTION FOR TCPA
CLAIMS
The term “State” within the context of the United States Code “means the States of

the Union, Puerto Rico, the Virgin Islands, Guam and the Northern Mariana Islands”, in
accordance with 7 U.S.C. § 349. When TCPA provides to bring in appropriate court of that
State means the territory where a court is located; and “appropriate court” means legal
action is granted only for courts and exclude arbitration which is not part of our courts
system but rather is a private sector proceeding to resolve business contract disputes by
arbiters who are not judges. See Rent-A-Center, West, Inc.. v. Jackson, 561 U.S. 63 (2010)
Section 2 of the FAA places arbitration agreements on an equal footing with other

14

contracts”; United Steelworkers of Am. v. Warrior & Gulf Navigation Co., 363 U.S. 574
(i960) “arbitration is a matter of contract”; A.D. v. Credit One Bank, N.A., Case No. 171486 (7th Cir. 2018) “the fundamental principle that arbitration is a matter of
contract...arbitration agreements are contracts”; and other relevant case law”,

By

granting exclusive jurisdiction to district courts for actions bring by government
authorities under 47 U.S.C. § 227(g)(2), the TCPA evinced the clear intention that the
TCPA be interpreted in accord to the federal subject matter jurisdiction ordinarily granted
by U.S. Const. Article III § 2 and Article XII enforced by 28 U.S.C. § 1331 § 1343, Fed. R.
Civ. P. 38-39.

This Court already has settle this matters in Mims v. Arrow Financial

Services, LLC, 565 U.S. 368 (2012) “federal and state courts have concurrent jurisdiction
over private suits under the TCPA.”
The Circuit Court’s decision [Pett.App. A, la] is deficient as a matter of law and fact
because, among other things, four main reasons1. Treated motion to dismiss filed as a defense under Rule 12(b)(1) for lack of subject
matter jurisdiction as a motion to compel arbitration and quote: “ln ruling on a motion
to compel arbitration pursuant to section 4 of the FAA... ”, which have different rule
requirements such conferring and service of notice before its filing;
2. Misinterpreted that and quote: “parties agreed to arbitrate the matters at issue in this
case”, when they only agreed to refer previous case not this one;
3. Misinterpreted that for previous case parties agreed the claim was subject to
arbitration under the cardholder agreement when the parties only agree to refer
arbitration as an alternative mechanism to resolve without the need of court

15

intervention and in the complaint petitioner clearly stated her claim is not premised
neither to the cardholder agreement nor arbitration;
4. Misinterpreted that petitioner’s lawsuits are and quote: “identical”, when the pro se
complaint has significant changes.
Petitioner’s claim is not subject to arbitration because redress the deprivation of the
constitutional right of privacy, the controversy arises from common law (TCPA), dispute is
between citizen from different states, and the amount in controversy exceeds $20.00. Not
only petitioner’s new lawsuit is not subject to arbitration because she has not agreed to
arbitrate this case which is out of the scope of a business contractual dispute, but nor the
cardholder agreement is subject to arbitration due to petitioner refused arbitration which
cannot be forced since “a party cannot be required to submit to arbitration any dispute
which he has not agreed so to submit”, Id. United Steelworkers ofAm. v. Warrior & Gulf
Navigation Co. To the extent of that, the arbitration agreement does not include any
sentence delegating on arbitrator to decide any controversies challenging arbitrational
issues as this Court recently established prior the Circuit Court’s decision for this case,
Henry Schein, Inc. v. Archer & White Sales, Inc., 586 U.S.

(2019)(citation omitted).

Notwithstanding, the language of the arbitration agreement [Pett.App. K, 83a*84a; USDC
Dkt. 1, Ex. l] is permissible not mandatory:
“either you or we can require that any controversy or
dispute be resolved by binding arbitration”; “either you or we
mav. without the other’s consent, require, require that any
controversy or dispute between you and us (all of which are
called claims) be submitted to mandatory, binding arbitration.”;
“a party who initiates a proceeding in court mav elect
arbitration”; “Claims are not subject to arbitration if they are
filed by you or us in a small claims court”; “You or we mav bring
an action, including a summary or expedited motion, to compel

16

arbitration of claims Claims subject to arbitration, or to stay the
litigation of any Claims pending arbitration, in any court having
jurisdiction. Such action may be brought at any time, even if
any such Claims are part of a lawsuit” (emphasis added)

District Court have subject matter jurisdiction over this case. Pursuant 28 U.S.C. §
1331 district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States. Pursuant 28 U.S.C. § 1343(a) district
courts shall have original jurisdiction of any civil action authorized by law to be
commenced by any person to recover damages or to secure equitable or other relief under
any Act of Congress providing for the protection of the constitutional civil rights such as
privacy secured by the TCPA. The FAA acknowledge the district courts subject matter
jurisdiction granted under Title 28- “may petition any United States district court which,
save for such agreement, would have jurisdiction under title 28, in a civil action...”, 9
U.S.C. § 4 (emphasis added).

Furthermore, FAA do not waive/preclude/demise the

statutory reliefs remedies of the TCPA; or makes groundless an exclusions for arbitration
derived from its language “written provision in contract involving commerce to settle by
arbitration shall be valid, SAVE upon such ground as exist at law or in equity for the
revocation of any contractpursuant 9 U.S.C. § 2 (emphasis added).

The arbitration

agreement acknowledge the District Court subject matter jurisdiction when require that
any arbitration hearing be held in the same city as the closest U.S. District Court.

This

petition seek this Court resolve whether when Congress enacted the TCPA had the
intention of grant to arbitration same concurrent jurisdiction than state and district courts
over TCPA claims; whether the FAA deprive the district court from federal question and

17

civil right original jurisdiction; and whether the related joint stipulation deprive the
district court from subject matter jurisdiction in this case. We say no, no and no.
When enacted the TCPA the Congress has no intention of grant to arbitration
proceedings concurrent jurisdiction with state and district courts over TCPA claims
evinced from the language within 28 U.S.C. § 654:
“a district court may allow the referral to arbitration of
any civil action (including any adversary proceeding in
bankruptcy)
pending
before
it
when
the
parties
consent...consent to arbitration is freely and knowingly obtained
and no party or attorney is prejudiced for refusing to participate
in arbitration” (emphasis added)

The word “may” imply arbitration by consent is optional subject to the discretion of the
court and the term “consent” implies mutual accord of the parties.

Titles 9 and 28

interplay with each other not overwrites one to the other. FAA was amended to be in
accord with Title 28 which evinced Congress has no intention to supersedes district court’s
federal question and civil right original jurisdiction. Section 651 confirms this argument:
“For purpose of this chapter, an alternative dispute
resolution process includes any process or procedure...in which a
neutral party participates to assist in the resolution of issues in
controversy, through processes such as early neutral evaluation,
mediation, minitrial, and arbitration as provided in sections 654
through 658... the use of arbitration may be authorized only as
provided in section 654’ (emphasis added)
Accordingly, the Circuit Courts analysis about that 28 U.S.C. § 654 does not apply because
Section 651 ‘shall not affect Title 9” is without merit in law. Rule any different, would
override Section 654 limitation to the court discretional authority for refer by consent
cases to arbitration in lawsuits when one of the following occur: violation of a

18

constitutional right) jurisdiction invoked on Section 1343; or money damages are more
than $150,000. If Section 654 limit the court’s discretionary authority to refer arbitration
a case regardless if parties consent, the related joint stipulation cannot preempt or is
above the law mostly when any prior petitioner’s consent is deemed expressively revoked
through the filing of this new case. Such limitation of court’s discretional authority under
Section 654 was adopted by Middle District Local Rule 8.02 which could not possible had
been repealed to be implemented in accord with Section 651 as Circuit Court
misinterpreted because originally it was adopted in accord:
“It is the purpose of the Court, thorough adoption and
implementation of this rule, to provide an alternative
mechanism for the resolution of civil disputes in accord with 28
U.S.C. Sections 651-658”, Local Rule 8.01(a) [Pett.App. J, 73a]

More likely was repealed under the court discretion for not continues adopt a local rule for
Section 654 s safeguards. Regardless Local Rule 8.01 was repealed couple months ago on
February 1st, 2021, it was in effect when both the complaint and its appeal were filed.
Although a repealing of a local rule cannot demise Section 654. Circuit Court analysis is
also meritless as a matter of fact due two main reasons: l) a TCPA claim to redress
violation of privacy for harassment phone calls is not premised to cardholder agreement in
accordance to related case law A.D. v. Credit One Bank, N.A., Case No. 17-1486 (7th Cir.
2018) “statute protecting her from harassing phone calls. This is the core of her case...In
no way can her cause of action be considered premised on the cardholder agreement.”; and
2) the cardholder agreement is not subject to arbitration after petitioner refused
arbitration via writing notice sent to respondent. Petitioner does not have to show in the
complaint she refused arbitration for her cardholder agreement, as Circuit Court opined,

19

because federal courts are notice not fact pleading jurisdiction and the court must accept
as true the factual allegations in the complaint and construe them in the light most
favorable to the petitioner. See Tellabs, Inc. v. Makor Issues & Rights, LTD, 551 U.S. 308,
322 (2007).

Although in the complaint petitioner sufficiently showed arbitration

agreement is unenforceable because is out of the scope of the cardholder contract; it is not
premised to respondent’s willful unlawful violations of TCPA; and any arbitration issues
with its correspondent material facts are matters to be decided by a jury as petitioner
demanded at district level.
Lastly District and Circuit Courts’ opinions about that related counseled case’s joint
stipulation deprive the court from subject matter jurisdiction is meritless. We argue that
the related joint stipulation was a consent between attorneys to dismiss previous related
counseled case to be filed in arbitration! and petitioner should not be prejudice for such
stipulation signed by her attorney upon the pretense that he would continue with legal
representation to file arbitration. The related case’s joint stipulation was filed in 2018
with the only purpose to comply with the requirement for the court issued a voluntary
dismissal under Fed. R. Civ. P. 4l(a)(l)(A)(ii). A joint stipulation is by definition an accord
on a procedural matter between attorneys for the two sides in a legal action.

West’s

Encyclopedia ofAmerican Law, edition 2. (2008), stipulation (n.d.). A joint stipulation is
not governed by FAA or contract tort laws. Rather is governed by procedural due process
authorities Federal Rules of Civil Procedures! Local Rules! etc. If a commerce contract
vested with more legal standing by promulgated federal laws may be revoked, invalidated
or waived, how much more a joint stipulation may be unenforceable,

If a lawsuit

dismissed without prejudice after referred to arbitration may without penalties be re-filed
20

within 30 days preserving the right for jury trial and be treated as if was never been
referred to arbitration, how much more the joint stipulation may be revoked^
“Within thirty (30) days after the filing of the arbitration
award with the Clerk, any party may demand a trial de novo in
the District Court... treated for all purposes as if it had not been
referred to arbitration, and any right of trial by jury shall be
preserved inviolate...No penalty for demanding a trial de novo
shall be assessed by the Court”, Local Rule 8.06 [Pett.App. J,
78a]

If court s proceedings may stay during arbitration)’ if an arbitration award may be
appealed in District Court; if arbitrational issues are should be decided by a jury, under
same principle the joint stipulation cannot deprive the District Court from subject matter
jurisdiction neither deprive petitioner from her legal right to file a new lawsuit.
Respondent’s arbitration agreement acknowledges the court’s jurisdiction for review
arbitration awards*
“An award by a panel, or an award by a single arbitrator
after fifteen days has passed' shall be....subject to judicial
review that may be permitted under the FAA”, respondent’s
arbitration agreement [Pett.App. K, 84a]
Accordingly District Court has subject matter jurisdiction over petitioner’s new pro
se lawsuit. For all the above Circuit Court’s decision about District Court’s has lack of
subject matter jurisdiction due to previous case’s joint stipulation should be reversed for
be contrary to law.
II.

ARBITRATION COSTS ARE PROHIVITIVELY EXPENSIVE
It would be against justice to leave unsettle arbitration costs as prohibitively

expensive in this case since binding mandatory arbitration prohibit from brought in court

21

any post-arbitration issue that may arose about arbitration costs allocation. This is true
considering petitioner is indigent; she is proceeding without attorney/legal assistance and
is not nor has been a law student. This case provides the opportunity to make a new
history in the furtherance of welfare for defenseless by issue an opinion to exclude
arbitration on the ground of prohibitively expensive specifically in cases with no lawyerprose indigent litigants.

The Circuit Court found petitioner sufficiently satisfied the

requirements of poverty through affidavits filed at both lower courts a level showing that
she owns no assets and her income is below the 125% federal poverty guidelines [Pett.App.
E]. Martinez v. Kristi Kleaners, Inc., 364 F.3d 1305 (11th Cir. 2004) “When considering a
motion filed pursuant to 1915(a), the only determination to be made by the court...is
whether the statements in the affidavit satisfy the requirement of poverty.”

In the

complaint petitioner stated that she is responsible for paying arbitration costs sustained
by cardholder agreement and affidavit of Credit One’s employee:
“Until this date Plaintiff has not been able to file an
arbitration demand due to lack of financial resources since the
American Arbitration Association does not provide for indigents
claimants the waiving of filing fees and related costs.” [USDC
Dkt. 1, Par. 47]
“AGREEMENT: [...] If this application is accepted and
one or more credit cards are issued, I agree to pay all charges
incurred in accordance with...Arbitration agreement...” [USDC
Dkt. 1, Ex. 2]
“Costs: ....If you file the arbitration, you will pay the
initial fee...Each party will bear the expense of that party’s
attorneys, experts, and witness, and other expenses, regardless
of which party prevails...Enforcement, Finality, Appeals: ...any
party may appeal the award by requesting in writing a new
arbitration before a panel of three neutral arbitrators...Costs
will be allocated in the same way they are allocated for
arbitration before a single arbitrator.” [Pett.App. K, 84a]

22

*

"I

Beyond reasonable doubt petitioner meet the burden of showing the likelihood of incurring
the so large prohibitively expensive arbitration costs that will preclude petitioner from
vindicate her rights as required by this Court, Green Tree Financial Corp. - Alabama v.
Randolph, 531 U.S. 79 (2000). If petitioner showed to the Circuit Court she is poor enough
to be spare payment of the appeal filing fees, is legally inferred she have no financial
capacity to pay the so many disadvantage large arbitration fees as was asserted at District
Court“wasn’t able to...paid out of pocket the so many
disadvantaged arbitration fees, hearing fees, hearing room
rental fees, abeyance fees, review clause fees, registry clause
fees,
subsequence
fees,
arbitrator
rate
per
hour/expenses/compensation/etc.” [USDC Dkt. 10, Par. 11]
Accordingly petitioner’s argument about arbitration prohibitively expensive costs
would prevent the vindication of her claim, did not fail. For all the above, petitioner
should be excluded from arbitration for being prohibitively expensive due to her indigent
status; and Circuit Court’s decision should be reversed because petitioner sufficiently
showed at both lower courts that she bears the arbitration costs.
III.

WAIVER OF ARBITRATION
The Circuit Court found respondent did not waived arbitration. We disagree and

re-argue that respondent implicitly waived any right to arbitrate after acted inconsistently
with their request “A party may waive a contractual right to arbitrate expressly or
implicitly...in determining waiver, diligence or the lack thereof should weigh heavily in
the decision-did that party do all it could reasonably have been expected to do to make the
earliest feasible determination of whether to proceed judicially or by arbitration”, A.D. v.

23

►

f

*
\

l

4

i

V

%

Credit One Bank, N.A,, Case No. 14C10106 (N.D. Ill. Aug. 19, 2016). In Ernst & Young
LLP v. Baker O’Neal Holdings, Inc., 304 F.3d 753 (7th Cir. 2002) (citation omitted), the
Seventh Circuit Court of Appeal sustained a previous opinion issued in Cabinetree of
Wisconsin, Inc. v. Krafmaid Cabinetry, Inc. 50 F. 3d 388, 390, (7th Cir. 1995) (citation
omitted) about that presumptive waiver may arise from recourse to the judicial process
and found that any right to compel arbitration was waived because the party’s actions
were inconsistent with its claim to arbitrate not exercised in a diligent manner, quoting
By filing the pro se complaint, any previous deemed consent to arbitrate derived from
related joint stipulation was expressly revoked by petitioner.
The related joint stipulation is not a business contract that involved interstate
commerce. Neither the joint stipulation is governed by the FAA or contract tort laws nor
is premised to the cardholder agreement.

If a commerce contracts and arbitration

agreements may be waive, how much more a joint stipulation may be waived too “ an
agreement to arbitrate, just like any other contract may be waived”, Ivax Corp, v. B.
Braun of America, Inc., 286 F.3d 1309, 1315'16 (11th cir. 2002).

If a lawsuit may be

dismissed due to lack of prosecution, under same principle lack of diligence may also lead
to waiver “lengthy delay itself can lead to an implicit waiver of arbitration...This is
especially true where the delay was due purely to the defendant’s lack of diligence”, A.D.
v. Credit One Bank, N.A., Case No. 14C10106 (N.D. Ill. Aug. 19, 2016). Respondent failed
to show how waiver of arbitration was not traceable to their lack of diligence neither
provided any reason to sustain their unexcused delay,

On the contrary, petitioner

sustained she was not able to file arbitration because does not have money to pay the
prohibitively expensive costs.

In their arbitration agreement under same permissible

24

S

*>

language is contemplated a respondent’s waiver for arbitration when state that if they
waive arbitration by the failure-forbearance to enforce it would be only just for that
specific moment and/or claim not for future moments and/or claims:
“Failure or forbearance to enforce this arbitration
provision at any particular time, or in connection with any
particular Claims, will not constitute a waiver of any rights to
require arbitration at a later time or in connection with any
other Claims.” [Pett.App. K, 84a]
The Circuit Court concluded that respondent did not waived arbitration and
misplace as if were a guide for the court determine waiver a requirement imposed over a
party (not the court) to establish other party’s waiver on the grounds of engagement of
substantial participation in litigation “To establish waiver, a party must show...Never has
Credit One engaged in substantial participation in this litigation” [Pett. A, 5a]. This does
not apply in this case because petitioner contended a waiver due to respondent’s lack of
diligence to comply or enforce the joint stipulation to seek arbitration. The Eleventh
Circuit itself has established a specific test for a court determine waiver “we have
established a two-part test. First, we decide if, under the totality of the circumstances, the
party has acted inconsistently with the arbitration right, and, second, we look to see
whether, by doing so, that party has in some way prejudiced the other party.” Id Ivax
Corp, v; B. Braun ofAmerica, Inc. In this case both requirements were meet. Respondent
acted inconsistently with their request to arbitrate and by doing so, petitioner was
deprived from her right to have her claim be heard within reasonable time that preventing
she could vindicate her rights that would have been barred due to time statute limitation.
For related case the Seventh Circuit Court applied an additional guide for determine

25

5

v

waiver “in determining waiver, diligence or the lack thereof should weigh heavily in the
decision-did that party do all it could reasonably have been expected to do to make the
earliest feasible determination of whether to proceed judicially or by arbitration”, A.D. v.
Credit One Bank, N.A., Case No. 14C10106 (N.D. Ill. Aug. 19, 2016). Notwithstanding,
the new circumstances call for exemption from arbitration after petitioner ended without
legal representation without been able to find a new one; and she is filing this new case as
indigent pro se.
Accordingly, respondent waived arbitration.

For all the above, Circuit Court’s

decision about that respondent did not waived arbitration is without merit and should be
reversed.
IV.

DEPRIVATION OF DUE PROCEESS OF LAW AND EQUAL PROTECTION OF
LAWS
In accordance with U.S. Const. Amend. XIV § 1 no State deprive any person of

property without due process of law; nor deny to any person within its jurisdiction the
equal protection of laws. As was argued at both lower courts, petitioner has been deprived
from her right to recover monetary reliefs under the TCPA without the due process of law
and from equal protection of laws due to the followings^
1.

This civil case and demand for jury trial should have not been referred to

Magistrate Judge without petitioner’s consent in accordance with 28 U.S.C. § 636(bx)
Upon the consent of the parties, a full'time United States magistrate judge... may conduct
any or all proceedings in a jury or nonjury civil matter” (emphasis added); Fed. R. Civ. P.
73(a) “When authorized under 28 U.S.C. §636(c), a magistrate judge may, if all parties
consent” (emphasis added)

26

2.

Magistrate Judge cannot makes findings over motion to dismiss in pursuant 28

U.S.C. § 636(b)(1) “a judge may designate a magistrate judge to hear and determine any
pretrial matter pending before the court, except a motion for injunctive relief for
judgment on the pleadings, for summaryjudgment, to dismiss...” (emphasis added)
3.

Arbitration issues with its related material facts should have been referred to be

decided by the jury in accordance with U.S. Const. Amend. XII “In Suits at common law,
where the value in controversy shall exceed twenty dollars, the right of trial by jury shall
be preserved » 9 U.S.C. § 4 “If the making of the arbitration agreement or the failure,
neglect, or refusal to perform the same be in issue, the court shall proceed summarily to
the trial thereof... Where such an issue is raised, the party alleged to be in default may,
except in cases of admiralty, on or before the return day of the notice of application,
demand a jury trial of such issue, and upon such demand the court shall make an order
referring the issue or issues to a jurf (emphasis added); Baltimore & Carolina Line, Inc.
v. Redman, 295 U.S. 654 (1935) “The right to trial by jury preserved by the Seventh
Amendment is the right which existed under the English common law when the
Amendment was adopted...in the absence of express or implied consent to the contrary,
issues of law are to be resolved by the court, and issues of fact are to be determined by the
jury"; Osorio v. State Farm Bank, 746 F. 3d 1242 (11* Cir. 2014) “A genuine dispute of
material fact...this is not an issue that can properly be decided on summary judgment.
The issue must instead be submitted to a fact finder... This is exactly the kind of factual
dispute that cannot properly be resolved on summary judgment...genuine dispute of
material fact should properly be submitted to a jury...” (emphasis added)

27

4.

District and Circuit Court showed gross abuse of discretional authority when

refused to consider petitioner’s reasons for not adopt the RR timely asserted Response to
Order to Show Cause [USDC Dkt. 19] on February 24th of 2021 two days before the due
date to file objections to the RR in that were re-asserted on motion to vacate MJ [USDC
Dkt. 26]
5.

District Court showed gross abuse of discretional authority when denied petitioner’s

motion to proceed at forma pauperis forcing her to use money of daily living necessities to
paid out of pocket the $400.00 filing fees; and denied to appeal as pauper when no other
judge would rule the same way evidenced when the Circuit Court granted petitioner’s
motion to proceed on appeal in forma pauperis that justify reversal of the District Court
dismissal in accordance with Florida Supreme Court relevant case law “a showing of gross
abuse of a trial court's discretion is necessary on appeal to justify reversal of the lower
court's ruling on a motion to vacate a default”, North Shore Hospital, Inc. v. Barber, 143
So. 2d 849 (Fla. 1962); “The discretionary ruling of the trial judge should be disturbed only
when his decision fails to satisfy this test of reasonableness”, Canakaris v. Canakaris, 382
So. 2d 1197 (Fla. 1980)
6.

District Court failed to be impartial after showed extreme deference for the defense

without minimum intrinsic standard for the respondent’s negligence not by error to file
the required CIP, while applied more strict standards to consider petitioner’s objections
when pro se litigants require less standards in accordance with this Court opinion issued
in Haines v. Kerner, 404 U.S. 519, 92 S. Ct. 594 (1972). District Court based its decision
base on the expiration of the deadline to file objection to the RR but regardless petitioner
provide timely reasons for do not adopt the RR, this analysis is meritless because time

28

limit which is not jurisdictional pursuant Fed. R. Civ. P. 53-Committee Notes 2003 for
amendment subdivision (g)(2) “time limits for objecting magistrate judge report are not
jurisdictional and the court may excuse the failure to seek timely review”. This is truth
considering that the court never put petitioner on notice about the deadline to file
objection to the RR and the adverse consequences for failure to file objection. Even truer
considering that the RR did not included the require notice about the time to file such
objections.
Accordingly petitioner has been deprived from due process of law and from equal
protection of laws. For all the above Circuit Court’s decision should be reversed to prevent
injustice and protect civil rights.

CONCLUSION
Petitioner prays this petition for writ of certiorari be granted and the exercise of
this Court’s supervisory power and jurisdiction to determine this case fully on its merits;
reverse entirely the District and Circuit Court’s decisions; remand that this case is
excluded from arbitration; mandate District Court must continue the proceedings in
accordance with the applicable laws, rules and case authorities; and order any other relief
deemed appropriate as justice require.
Respectfully submitted on August 7th, 2021 by petitioner Jessica Graulau.

SignatureJessica Graulau, Petitioner

29

